No. 20-1364

 

In THE
Supreme Court of the United States

BoFl HOLDING, ING., et ai.,

Petitioners,
ve

HOUSTON MUNICIPAL EMPLOYEES PENSION SYSTEM,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,982 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 11, 2021.

 
